 ~'
 .
~"
                           DEPARTMENT OF HEALTH & HUMAN SERVICES                                              Office of Inspector General
 "ò
   '",
      ;Y"".l/iVd30                                                                                            Washington, D.C. 20201
  ~"'''l-S'OVICES.O''_




                                                                             AUG - 5 2008




                         TO:                      David Frank
                                                  Director, Medicaid Integrity Program


                                                   (~/~~
                                                  Centers for Medicare & Medicaid Services


                         FROM:                    šf~art Wright
                                                  Deputy Inspector General for Evaluation and Inspections


                         SUBJECT:                 Memorandum Report: State Medicaid Agency Referrals to the Offce of
                                                  Inspector General Exclusions Program, OEI-OI-06-00301


                         This memorandum report presents the findings of our recent work to determine the extent
                         to which final actions taken by State Medicaid Agencies in 2004 and 2005 were received
                         by the Offce ofInspector General (OIG). OIG's exclusions program relies in part on
                         referrals of individuals and entities (hereafter referred to as providers) sanctioned by State
                         Medicaid agencies. We hope that you find this information usefuL.

                         BACKGROUND

                         Section 1 128(b)(5) of   the Social Security Act (the Act) specifies that providers who are
                         suspended or excluded from paricipation or otherwise sanctioned for reasons bearing on
                         professional competence, professional performance, or financial integrity (hereafter
                         referred to as final actions) by State Medicaid agencies are subject to a permissive
                         exclusion by OIG. When State Medicaid agencies take final actions against providers,
                         they   are required to promptly report the providers to OIG. i Furthermore, State Medicaid
                         agencies must notify OIG whenever State or local cours convict providers of offenses
                         related to participation in the Medicaid program, unless the Medicaid Fraud Control Unit
                         (MFCU) has already done SO.2

                         State Medicaid agencies and other entities, such as MFCUs and State licensure boards,
                         refer providers with final actions to OIG. Upon receiving a referral, OIG staff enter
                         biographical information on the provider into a database (hereafter referred to as the
                         exclusions database), which may include the provider's name, address, tax identification
                         num ber, date of birth (for individuals), type of provider/business, and the source of the
                         referraL. OIG staff then review the referral to determine whether to pursue an exclusion
                         case based on the Federal criteria for exclusion. When OIG excludes a provider, it sends

                         i Social Security Act § 1902(a)(41) and 42 CFR § l002.3(b)(3).
                         242 CFR § 1002.230.



                         OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
Page 2 – David Frank


a notification letter to the Medicaid agency in the State in which the excluded provider
resides. In some instances, OIG notifies additional States if the provider is believed to be
licensed or doing business outside of the State in which he or she resides. OIG also
maintains the List of Excluded Individuals/Entities (LEIE), a publicly accessible database
available on the OIG Web site, which contains information on all providers currently
excluded. OIG updates the LEIE on a monthly basis.

In addition, staff from OIG conduct outreach to the agencies that refer providers with
final actions. This outreach typically fosters relationships with the referring agencies and
informs them about OIG’s exclusion authorities.

METHODOLOGY

Our review matched data from the exclusions database with information on providers
with final actions taken by State Medicaid agencies in 2004 and 2005. In addition, we
surveyed State Medicaid agency officials. From November 2006 to April 2007, we sent
our request for data (outlined further in the next section) and our survey to the directors
of the Medicaid agencies in the 50 States and the District of Columbia (hereafter referred
to as States). We requested that both the data request and the survey be completed by the
director or a designee knowledgeable about provider enrollment/disenrollment who can
provide the State’s perspective. We received 44 responses to the data request, for a
response rate of 86 percent. We received 47 responses to the survey, for a response rate
of 92 percent.

Match of Providers With Final Actions to the Exclusions Database
We requested that State Medicaid agencies submit information on all providers with final
actions taken between January 1, 2004, and December 31, 2005, that should be referred
to OIG under section 1128(b)(5) of the Act and 42 CFR § 1001.601.3 Requested
information included the provider’s name, address, tax identification number, type of
profession/business, date of birth (for individuals), type of action taken against the
provider, and date of the action. Where appropriate, we contacted State Medicaid
agencies and OIG’s exclusions staff to clarify the types of final actions we received.

We matched the State data with data from the exclusions database entered on or after
January 1, 2002. Our date range for the data from the exclusions database preceded the
date range of the State data because other agencies may have referred a provider to OIG
before a State Medicaid agency took a final action against the provider. We counted a
provider sent by State Medicaid agencies as a match when the provider’s name and


3
 We further defined these final actions in the data request as program suspensions, program exclusions,
other actions that limit the ability of an individual or entity/business to participate in a State Medicaid
program regardless of what such an action is called and situations in which an individual or entity/business
voluntarily withdraws from a State’s Medicaid program to avoid a formal sanction.


OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
Page 3 – David Frank


designated OIG region matched the exclusions database.4 Where appropriate, we also
used one or more of the following variables: tax identification number, date of birth, and
city and State. Finally, we also visually reviewed certain provider records to verify close
matches (such as transposed digits). Attachment A provides a breakdown of respondents
by State with their match rates.

Survey of State Medicaid Agencies
Our survey collected data on agency staff who make referrals, OIG communication with
State Medicaid agencies about referring providers with final actions, and barriers to
referrals. It included open-ended questions on factors that impede referrals and
additional outreach desired by the States. Before sending the survey, we solicited
comments about the survey’s content from OIG staff who work with the exclusions
program. We incorporated their input in the final survey.

Limitations
The findings presented are based on self-reported data that we received from State
Medicaid agencies. We did not independently verify the accuracy of the information we
received on providers with final actions, nor did we verify whether we received a
complete list of providers with final actions taken during our timeframe.

Standards
We conducted this study in accordance with the “Quality Standards for Inspections”
issued by the President’s Council on Integrity and Efficiency and the Executive Council
on Integrity and Efficiency.


RESULTS

About Two-Thirds of Providers With Final Actions Imposed by State Medicaid
Agencies in 2004 and 2005 Were Not Found in the Exclusions Database
State Medicaid agencies reported taking 4,319 final actions against providers in 2004 and
2005. Of these, 61 percent were not found in the exclusions database. See Figure 1 on
page 4 for a breakdown of the results of the match.




4
    States are assigned to regional offices operated by OIG.


OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
Page 4 – David Frank



                Figure 1: Results of match of providers with final actions from

              State Medicaid agencies in 2004–2005 to the exclusions database*


                            Providers for
                            whom a match
                            cannot be
                            determined
                            0.8%                                                          Providers who
                                                                                          matched with
                Providers who
                                                                                          the exclusions
                are not in the
                                                                                          database
                exclusions
                                                                                          38.6%
                database. No
                match exists
                using the name
                and the region
                60.6%


                N=4,319 providers w ith final actions

          * See Methodology section for the definition of the types of matches.
          Source: OIG analysis of data from State Medicaid agencies and the exclusions database, 2007–2008.



Match Rates Varied Widely Across States

Eleven States had a match rate of less than 25 percent, while 9 States had a match rate
greater than 75 percent. The match rates of the States ranged from 0 to 100 percent, with
a median rate of 43 percent.5 About half of the States with a low match rate took few
final actions against providers. Of the 11 States with match rates of 25 percent or less,
6 States took final actions against fewer than 10 providers, with 4 of these States taking
action against 2 or fewer providers (see Attachment A for match rates by State).

The eight States that took final actions against more than 100 providers had a slightly
higher median match rate of 48 percent, yet these States still had a large variation in their
match rates. Alabama, Louisiana, and Texas had the highest match rates of these eight
States, with rates of 94 percent, 85 percent, and 81 percent, respectively. However, the
two States that took final actions against the largest number of providers, New York and
Florida, had two of the lowest match rates: 21 percent and 9 percent, respectively.

We found no general patterns either from the data match or from the match results and
responses to our survey. For instance, although 34 out of the 47 Medicaid agency
officials reported that they have an identified point of contact within OIG for questions
concerning referrals, we found no consistency between States having both a high match

5
 Although we received responses to our data request from 44 States, our match rate includes only the
38 States that reported taking one or more final actions against providers in 2004 and 2005.


OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
Page 5 – David Frank


rate and an OIG point of contact. Furthermore, we found no association between those
States that cited barriers to reporting final actions and low match rates. Finally, we also
found no consistency between the number of providers with final actions sent by States
and their match rates.

Officials from State Medicaid agencies conveyed uncertainty about the types of
information to send with referrals, the types of final actions to refer to OIG, and the
outcome of the referrals that they make. We asked State Medicaid agency officials about
factors that may present barriers to referring providers with final actions to OIG.
Officials from 22 out of 47 State Medicaid agencies cited unclear guidance and
instructions from OIG regarding the documentation to send with referrals as a barrier. As
stated by one State Medicaid official, “If a referral is made, we don’t know the
documentation requirements.” Additionally, about half of State Medicaid officials
indicated that they would like to have additional guidance about the referral process. As
one State Medicaid official responded, “It would be handy to have a little ‘cheat sheet’
that clearly stated ‘refer these cases’ ‘with this info.’”

Moreover, officials from 19 out of 47 State Medicaid agencies cited uncertainty about the
final actions that need to be referred to OIG as a barrier. Some of these officials were
unsure which actions taken by the State Medicaid agency are required to be referred to
OIG. Six State Medicaid officials commented that they were unaware that they were
supposed to report final actions to OIG. According to one State Medicaid agency
official, “The agency has not referred actions to OIG as we did not believe our process
met OIG’s definition of a termination.”

Furthermore, State officials reported that they receive little feedback on the providers
with final actions that they refer to OIG. Of the 47 State Medicaid agencies, 12 officials
reported that OIG informs the agency of the outcome of the provider referral “a little of
the time” or “never,” and 19 reported “don’t know.” Just five States reported receiving
this information “all of the time.” As previously mentioned, information on providers
excluded by OIG is available to States. When OIG excludes a provider, it sends a
notification letter to the Medicaid agency in the State in which the excluded provider
resides. In some instances, OIG notifies additional States if the provider is believed to be
licensed or doing business outside of the State in which he or she resides. It also adds the
provider to the LEIE. OIG does not provide written notice on referrals on which it takes
no action.

Despite the barriers, State Medicaid agencies rate recent outreach from OIG as helpful
and would welcome more information about exclusions processes. On our survey, 16 out
of 47 State Medicaid officials reported that OIG provided them with information
concerning the Federal exclusions program in the past 2 years. In most cases, this
information covered Federal exclusion authorities, the effect of Federal exclusions, and
when to refer a provider to OIG. Furthermore, about half of the State Medicaid officials



OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
Page 6 – David Frank


reported that the agency had discussions in the past 2 years with OIG concerning referrals
of providers with final actions. All of the States that had these discussions reported that
the information they received was helpful.

In addition, several officials whose agencies received outreach commented positively on
their working relationships with OIG. One official commented that “The current
relationship between the State Medicaid agency and the OIG is very positive.
Communication between the OIG and the State Medicaid agency is frequent and useful
regarding the exclusion of providers.”

State Medicaid officials who neither received information nor had discussions with OIG
concerning exclusions provided several suggestions for the kind of outreach that they
would like to receive. These ideas include providing a detailed explanation of State
agency obligations, written instructions on documentation to send, and contact
information for OIG exclusions staff. Other suggestions included formalized training for
State Medicaid agency staff, as well as information on how to discuss the exclusions
program with providers. Additionally, two officials reported that the information about
exclusions should be provided to the States’ Offices of Inspector General and not to the
Medicaid agency.

Officials from most State Medicaid agencies that had either low match rates or that were
unable to supply data for this study expressed interest in working more closely with OIG
regarding referrals. One official noted that the Medicaid agency “will better
communicate with our investigative partners to collect the necessary documents in
support of the convictions to substantiate our claim for both provider termination from
the Medicaid program and notification to your office.” Another official commented that
“The agency is committed to assisting in the identification and reporting of providers
who are excluded from participation in State and Federal Health Care programs. We
look forward to receiving additional information on the mechanisms we should employ to
assist the OIG.” Finally, one State official reported that by responding to our study, it
became apparent to the agency that “no coordinated effort existed . . . to make referrals.”
In response, the agency recently established an interdepartmental memorandum of
understanding to “outline all of the functions touching fraud and abuse including the
process to make referrals up to the Federal OIG.”

CONCLUSION

Our results show that opportunities exist for both OIG and State Medicaid agencies to
increase the number of referrals of providers with final actions. Just one-third of the
providers with final actions taken by State Medicaid agencies in 2004 and 2005 were
found in the exclusions database. Additionally, officials from State Medicaid agencies
reported uncertainty about referral procedures. It is likely that increased outreach by OIG
to State Medicaid agencies to provide information about these procedures would be



OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
Page 7 – David Frank


beneficial. Moreover, increasing outreach could foster improved working relationships
between OIG and State Medicaid agencies, increase the number of referrals from State
Medicaid agencies, and strengthen OIG’s ability to identify potential fraud through State
Medicaid agencies.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-01-06-00301 in all correspondence.


ATTACHMENT
Match Rates of Final Action Data and the Exclusions Database Data by State


cc: State Medicaid Directors




OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
Page 8 – David Frank
Attachment: Match Rates of Final Action Data and the Exclusions Database by State
                              Number of         Percentage of           Number of         Percentage of           Number of         Percentage of Total number of
                           providers that       providers that       providers that           providers         providers for        providers for  providers with
                            matched the          matched the         did not match          that did not           which we             which we      final actions
State                         exclusions           exclusions       the exclusions            match the            could not            could not     collected for
                                database             database             database           exclusions          determine a          determine a this evaluation
                                                                                              database                match                match
Alabama                                 161               93.6%                    11              6.4%                    0                0.0%                172
Alaska1                                  —                    —                    —                  —                   —                     —                —
Arizona2                                 —                    —                    —                  —                   —                     —                —
Arkansas                                  0                0.0%                     2            100.0%                    0                0.0%                  2
California3                              —                    —                    —                  —                   —                     —                —
Colorado                                 10               33.3%                    20             66.7%                    0                0.0%                 30
Connecticut                               4               30.8%                     8             61.5%                    1                7.7%                 13
Delaware                                  1               50.0%                     1             50.0%                    0                0.0%                  2
District of Columbia                      2               10.5%                    16             84.2%                    1                5.3%                 19
Florida                                  75                8.7%                   786             91.0%                    3                0.4%                864
Georgia                                  14               51.9%                    13             48.1%                    0                0.0%                 27
Hawaii4                                  —                    —                    —                  —                   —                     —                —
Idaho                                    16               84.2%                     3             15.8%                    0                0.0%                 19
Illinois                                 24               47.1%                    26             51.0%                    1                2.0%                 51
Indiana                                  10               40.0%                    15             60.0%                    0                0.0%                 25
Iowa                                     11               26.2%                    29             69.1%                    2                4.8%                 42
Kansas                                    4               33.3%                     8             66.7%                    0                0.0%                 12
Kentucky                                 45               56.3%                    35             43.8%                    0                0.0%                 80
Louisiana                               138               85.2%                    23             14.2%                    1                0.6%                162
Maine                                    59               79.7%                    14             18.9%                    1                1.4%                 74
Maryland                                 74               54.8%                    61             45.2%                    0                0.0%                135
Massachusetts                             0                0.0%                     2            100.0%                    0                0.0%                  2
Michigan3                                —                    —                    —                  —                   —                     —                —
Minnesota                                 9               25.7%                    26             74.3%                    0                0.0%                 35
Mississippi                               4              100.0%                     0              0.0%                    0                0.0%                  4
Missouri                                 54               62.8%                    31             36.1%                    1                1.2%                 86
Montana                                   5               62.5%                     3             37.5%                    0                0.0%                  8
Nebraska                                  1               12.5%                     7             87.5%                    0                0.0%                  8
Nevada                                    1               16.7%                     5             83.3%                    0                0.0%                  6
New Hampshire1                           —                    —                    —                  —                   —                     —                —
New Jersey                               32               68.1%                    14             29.8%                    1                2.1%                 47
New Mexico1                              ---                  ---                  ---                ---                 ---                   ---              ---
New York                                280               20.8%                 1,061             78.7%                    7                0.5%              1,348
North Carolina                           20               12.1%                   146             88.0%                    0                0.0%                166
North Dakota1                            —                    —                    —                  —                   —                     —                —
Ohio                                     73               41.0%                   103             57.9%                    2                1.1%                178
Oklahoma                                  0                0.0%                    16            100.0%                    0                0.0%                 16
Oregon1                                  —                    —                    —                  —                   —                     —                —
Pennsylvania                             29               90.6%                     3              9.4%                    0                0.0%                 32
Rhode Island                              0                0.0%                     1            100.0%                    0                0.0%                  1
South Carolina                           36               94.7%                     2              5.3%                    0                0.0%                 38
South Dakota2                            —                    —                    —                  —                   —                     —                —
Tennessee3                               —                    —                    —                  —                   —                     —                —
Texas                                   438               81.0%                    94             17.4%                    9                1.7%                541
Utah                                      5               83.3%                     1             16.7%                    0                0.0%                  6
Vermont1                                 —                    —                    —                  —                   —                     —                —
Virginia                                  9               39.1%                    12             52.2%                    2                8.7%                 23
Washington                               12               66.7%                     6             33.3%                    0                0.0%                 18
West Virginia4                           —                    —                    —                  —                   —                     —                —
Wisconsin                                11               44.0%                    13             52.0%                    1                4.0%                 25
Wyoming                                   0                0.0%                     2            100.0%                    0                0.0%                  2
        Total                         1,667               38.6%                 2,619             60.6%                   33                0.8%              4,319


1
  The State Medicaid agency reported taking no final actions against providers in 2004 and 2005. However, the agency completed the survey.
2
  The State Medicaid agency reported that it does not take final actions against providers and thus did not complete the survey or data request.
3
  The State Medicaid agency submitted incomplete data that we were unable to use for our analysis. However, the agency completed the survey.
4
  The State Medicaid agency did not respond to either the survey or the data request.

OEI-01-06-00301 State Medicaid Agency Referrals to the OIG Exclusions Program
